                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 111030005                                                                 Page 1 of 1



         We investigated a university 1 that has received multiple NSF awards. We reviewed financial
         documentation and Time & Effort (T&E) reports for seven representative awards 2 granted to the
         university from 2002 to 2006. Our investigation revealed an administrative oversight under one
         award3 and the university returned funds to NSF. No additional action is required.

         Accordingly, this investigation is closed.




         2




NSF OIG Form 2 (11102)
